□FtttaNA

V i 1 r=> ,<©FV
<-No.,,20-_

FILED
OCT 0 5 2020

SUPREME COURT OF THE UNITED STATES

flJPREEMEFCni^RTLn^K

JAY S. KRAVITZ,
Petitioner pro se,
v.
KENNETH LEIS, GREENE COUNTY
CORRECTIONS LIEUTENANT,
JOHN AND JANE DOES, UNKNOWN
EMPLOYEES OF THE GREENE
COUNTY JAIL,
Respondents.
Petition for a Writ of Certiorari to
Review a Judgment from the 2nd Circuit
of the United States Court of Appeals

//

Jay S. Kravitz
Petitioner, pro se
P.O. Box 206
-n, NY 12058
•’-4026

7

j
/

-c.

j
j

%

Ocr _

s

Op >
'7CfJfy
<

.4

6: %

RECEIVED
DEC 2 3 2020

j

OFFICE OF THE CLERK
SUPREME COURT. U S.

RECEIVED
OCT - 7 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

Questions Presented

Whether Petitioner presented an underlying First Amendment
Constitutional violation in complaining of Respondents’ depriving him of the use of
Tefillin while incarcerated in Respondents’ facility, particularly in light of the
facility having failed to present any regulation or policy which would have
prevented Petitioner access to the Tefillin and the facility’s own grievance procedure
belatedly affirming the Petitioner’s right to use the tefillin?

Whether the lower court was in error for not finding that Respondent
Lieutenant Leis had a personal involvement in the violation of Petitioner’s First
Amendment right to practice his faith by repeatedly communicating with Petitioner
regarding his access to and use of his Tefillin, by repeatedly and directly refusing
Petitioner access to his Tefillin after the Petitioner directly asked Respondent for
the use of this prayer object including after the Grievance Coordinator at the facility
decided that Petitioner should have the use of his Tefillin, and the Respondent
personally investigated whether the Petitioner should have the use of the Tefillin?

The answer to both of these questions should be in the affirmative.

Parties
Petitioner, pro se- Jay S. Kravitz
Respondent- KENNETH LEIS,
GREENE COUNTY CORRECTIONS LIEUTENANT
List of Proceedings
Trial Court Judgment and Decision granting Summary Judgment to
Respondent- Kravitz v. Leis, 9H7-cv0600 (TJM/TWD) (N.D.N.Y. Mar. 25,
2019)
Appellate Court Judgment and Decision affirming the Trial Court*
Kravitz v. Leis, 19-1077 (2d Cir. May 7, 2020) Docket #19-1077
Citations of the official and unofficial reports
of the opinions and orders entered in the case
Kravitz v. Leis, 9H7-cv-0600 (TJM/TWD) (N.D.N.Y. Mar. 25, 2019)

Kravitz v. Leis, 19-1077 (2d Cir. May 7, 2020) Docket #19-1077

Basis for Jurisdiction
The Judgment sought to be reviewed was entered on May 7, 2020.
The statutory provision which confers on this Court jurisdiction to review on
a writ of certiorari the Judgment is 28 U.S. Code § 1254.

The constitutional provisions, treaties, statutes,
ordinances, and regulations involved in this case
Constitutional Provisions
Amendment I~
Congress shall make no law respecting an establishment of religion, or prohibiting
the free exercise thereof! or abridging the freedom of speech, or of the press! or the

right of the people peaceably to assemble, and to petition the Government for a
redress of grievances.
Amendment XIV~
Section 1. All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein they
reside. No State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States! nor shall any State deprive any person
of life, liberty, or property, without due process of law! nor deny to any person
within its jurisdiction the equal protection of the laws.
Statutes
42 U.S.C. S 1983Every person who, under color of any statute, ordinance, regulation, custom, or
usage, of any State or Territory or the District of Columbia, subjects, or causes to be
subjected, any citizen of the United States or other person within the jurisdiction
thereof to the deprivation of any rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party injured in an action at law, suit in
equity, or other proper proceeding for redress, except that in any action brought
against a judicial officer for an act or omission taken in such officer’s judicial
capacity, injunctive relief shall not be granted unless a declaratory decree was
violated or declaratory relief was unavailable. For the purposes of this section, any
Act of Congress applicable exclusively to the District of Columbia shall be
considered to be a statute of the District of Columbia.

Rules
Fed.R.Civ.P. 56(a)
Rule 56. Summary Judgment
(a) Motion for Summary Judgment or Partial Summary Judgment. A party may
move for summary judgment, identifying each claim or defense — or the part of
each claim or defense — on which summary judgment is sought. The court shall
grant summary judgment if the movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to judgment as a matter of law. The
court should state on the record the reasons for granting or denying the motion.

Brief Statement of Facts
The instant Constitutional matter arises out of Respondents’ deprivation of
Petitioner, a practicing member of the Jewish faith, the possession and use of
sacred prayer objects, specifically a Tallit, a prayer shawl, and Tefillin, phylacteries,

while he was incarcerated at the Greene County [N.Y.] Jail between February 26
2015 and June 19, 2015.
By Respondent Lieutenant Leis’s own admission, he directly participated in
the denial of Petitioner’s right to practice his faith at the facility. Specifically, he
repeatedly communicated with the Petitioner regarding his access to and use of his
Tefillin. Respondent repeatedly refused Petitioner the access to his Tefillin
including even after the facility’s Grievance Coordinator said that pursuant to both
the State and facility’s rules he should have access to it and no facility rule barring
the use of Tefillin having been given to Petitioner at any time. Respondent also
personally conducted an investigation as to whether Petitioner should have access
to his Tefillin. At no time did the Respondent provide any penological reason for the
deprivation of the Petitioner use of his prayer objects.
The basis for federal jurisdiction in the original complaint was pursuant to 42
U.S.C. § 1983 and 28 U.S.C. § 1343(a)(3), (4) as well as 28 U.S.C. § 1331. The state
law claims were brought pursuant to the supplemental jurisdiction provided by 28
U.S.C. § 1367.

A Concise Argument for the Allowance of this Writ
The Freedom of Religion is a Foundational Principal of our great nation.
The history of the Religion Clauses of the First Amendment has been chronicled by
this Court in detail. See, e.g., Everson v. Board of Education, 330 U.S. 1, 8-14
(1947); Engel v. Vitale, 370 U.S. 421, 425-430 (1962); McGowan v. Maryland,

366 U.S. 420, 437-442. Indeed, the early settlers came to this country from Europe
to escape religious prosecution.
The fundamental right to the free exercise of religion has been
unambiguously extended to prisoners. "[Cjonvicted prisoners do not forfeit all
constitutional protections by reason of their conviction and confinement in prison"
Bell v. Wolfish, 441 U.S. 520, 545, 99 S.Ct. 1861, 1877, 60 L.Ed.2d 447 (1979);
Accord, Turner v. Safley,

U.S.

, 107 S.Ct. 2254, 96 L.Ed.2d 64 (1987). Basic

First Amendment rights are not among those that "[a] prisoner shed[s] at the prison
gate." Procunier v. Martinez, 416 U.S. 396, 422, 94 S.Ct. 1800, 1815, 40 L.Ed.2d 224
(1974). (Marshall, J., concurring); Pell v. Procunier, 417 U.S. 817, 822, 94 S.Ct.
2800, 2804, 41 L.Ed.2d 495 (1974). A prisoner has the right to participate in
practices which are an integral part of his religious belief.
Tefillin are central to observant religious practice, normally worn by adult
Jewish males during their weekday morning prayers. A pair of Tefillin consists of
two small leather boxes containing parchment inscribed with verses from the Torah.
Each box is attached to thick leather straps several feet in length. The straps are
used to bind the boxes to the head and arm during prayer. Watson v. Christo, No.
16-cv433-RGA, at 5 (D. Del. Mar. 25, 2019). Ross v. Coughlin, 669 F. Supp. 1235,
1237 (S.D.N.Y. 1987); "Tephilin" are religious articles worn by observant Jewish
males above the age of thirteen on the forehead and on one arm during morning
prayers.

The Petitioner informed the Respondent when he arrived at his facility of his
desire to practice his religion and use his Tefillin. The Respondent undertook to
investigate the propriety of this ritual object as well as religious practices that the
Petitioner wanted to maintain. The Respondent was further directed by a decision
of the grievance coordinator at the facility to permit the Respondent the use of the
Tefillin. Nonetheless, the Respondent refused to permit the Petitioner the use of his
Tefillin and thereby flagrantly violated his Constitutional rights.
Respondent had a direct role in the Constitutional deprivation and at the
very minimum was deliberately indifferent to the deprivation of the Petitioner’s
right to practice his religion but the Second Circuit erroneously found that the
Respondent was not personally involved. This decision is in conflict with other
Circuits.
In Starr v. Baca, 633 F.3d 1191, 1194 (9th Cir. 2011) the Ninth Circuit held
that the threshold is met where the "[defendant’s] acquiescence in the constitutional
deprivations of which the complaint is made," or "conduct that showed a reckless or
callous indifference to the rights of others.", citing Larez v. City of Los Angeles, 946
F.2d 630, 645 (9th Cir. 1991).
The Seventh Circuit in Sandra T.E. v. Grindle, 599 F.3d 583, 591 (7th Cir.
2010) also differs from the decision of the Second Circuit. "When a state actor's
deliberate indifference deprives someone of his or her protected liberty interest [in
bodily integrity\ that actor violates the Constitution, regardless of whether the

**

actor is a supervisor or subordinate, and the actor may be held liable for the
resulting harm."
The First Circuit additionally differs from the Second Circuit. Sanchez v.
Pereira-Castillo, 590 F.3d 31, 49 (1st Cir. 2009). "Although 'Government officials
may not be held liable for the unconstitutional conduct of their subordinates under
a theory of respondeat superior,' supervisory officials may be liable on the basis of
their own acts or omissions," including supervising "with deliberate indifference
toward the possibility that deficient performance of the task may contribute to a
civil rights deprivation."

Conclusion
For the foregoing reasons, the Petitioner pro se Jay S. Kravitz respectfully
requests that this Court issue a writ of certiorari to review the judgment of the
United States Court of Appeals, Second Circuit.

DATED this 2nd day of October, 2020.

Respectfully submitted,

Jay S. Kra'wjtz,
Petitioner Pro Se
P.O. Box 206
Earlton, NY 12058
(518) 567-4026

